                                                    NATIONAL SCIENCE FOUNDATION
                                                     OFFICE OF INSPECTOR GENERAL
                                                       OFFICE OF INVESTIGATIONS

                                              CLOSEOUT MEMORANDUM

Case Number: A13120094                                                                       Page 1 of 1



                 We assessed an allegation that an SBIR grantee may have received funding for duplicate
         research, or otherwise violated NSF rules or regulations. 1 The company's involvement in this
         area of research can be traced back to its founders CAREER award starting in 2007, and other
         intermittent funding received by its researchers since that time. As part of the SBIR proposal, the
         authors describe potential competitors in the field, and the differences between proposed research
         and that previously completed? The program officer's analysis after panel review followed up
         with relationships between proposed research and previous work, prior to recommendation for
         funding. There is no support for the assertion that the award represents funding of research that
         has already been completed.

                   This case is closed with no further action taken.




NSF OIG Form 2 (11102)
